                           U.S. COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centre
                                      1155 21st Street, NW, Washington, DC 20581
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                      www.cftc.gov


   Office of the                                 April 30, 2010
Inspector General




      TO:            Gary Gensler
                     Chairman

      FROM:          A. Roy Lavik
                     Inspector General

      SUBJECT:       Semiannual Report of the Office of the Inspector General

             Attached is the Semiannual Report of the Office of the Inspector General for the period
      from October 1, 2009 through March 31, 2010. This report is submitted to you in accordance
      with the requirements of Section 5 of the Inspector General Act of 1978, as amended.

              I appreciate your continuing support of this office.

      Attachment
                   OFFICE OF THE INSPECTOR GENERAL
                COMMODITY FUTURES TRADING COMMISSION

                                         SEMIANNUAL REPORT
                                        FOR THE PERIOD FROM
                                October 1, 2009 THROUGH March 31, 2010

                                            TABLE OF CONTENTS

INDEX OF IG ACT REPORTING ............................................................................................... iii

EXECUTIVE SUMMARY ............................................................................................................ 1

INTRODUCTION .......................................................................................................................... 2
   CFTC Programs and Operations ................................................................................................. 2
   OIG Responsibilities ................................................................................................................... 2
   OIG Resources ............................................................................................................................ 4
COMPLETED AUDITS, REVIEWS, EVALUATIONS, and INSPECTIONS ............................ 5
   Audit of CFTC Financial Statements for Fiscal Year 2009 ........................................................ 5
   Assessment of CFTC’s Management Challenges ....................................................................... 6
   Audit of Compliance with the Federal Managers' Financial Integrity Act, FMFIA................... 8
   Evaluation of the CFTC Information Security Program and Practices, FISMA ........................ 8
CURRENT AUDITS, REVIEWS, EVALUATIONS, and INSPECTIONS .................................. 9
   Review of the Effect of the CFTC Pay System on Recruitment and Retention ......................... 9
   Inspection of CFTC’s Disposal of Surplus Information Technology Equipment ...................... 9
   Update of the Review of the Need for a Los Angeles Office ................................................... 10
   Review of CFTC’s Documentation of Market Surveillance Communications ........................ 11
AUDIT REPORTS and REVIEWS OVER SIX MONTHS OLD ............................................... 12
   Corrective Action not Completed ............................................................................................. 12
   Corrective Action Completed. .................................................................................................. 12
   Management Decision not Made. ............................................................................................. 12
INVESTIGATIONS ..................................................................................................................... 13

SUMMARY OF MATTERS REFERRED TO PROSECUTORIAL AUTHORITIES ............... 13

CONGRESSIONAL INQUIRIES ................................................................................................ 13

LEGISLATIVE, REGULATORY AND RULE REVIEWS ........................................................ 14
   Introduction and Summary. ...................................................................................................... 14
   Rule Reviews Initiated in Previous Reporting Periods. ............................................................ 14


                                                                     i
   Rule Reviews Initiated this Reporting Period. .......................................................................... 14
   Legislative Activities ................................................................................................................ 14
PEER REVIEWS .......................................................................................................................... 14

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD ...................................... 15

REVISED MANAGEMENT DECISIONS .................................................................................. 15

INSPECTOR GENERAL DISAGREEMENT ............................................................................. 15

GAO LIAISON ............................................................................................................................. 15

STRATEGIC PLAN FOR THE OFFICE OF THE INSPECTOR GENERAL .......................... 16
   Investigative Agenda ................................................................................................................ 16
   Legislative and Regulatory Review Agenda............................................................................. 16
   Audit Agenda ............................................................................................................................ 17
CONTACTING THE OFFICE OF THE INSPECTOR GENERAL............................................ 19

Table 1 – Reports Issued with Questioned Costs.......................................................................... 20

Table 2 – Reports Issued with Recommendations ........................................................................ 21




                                                                     ii
                            INDEX OF IG ACT REPORTING
                                  REQUIREMENTS

Section 4(a)(2) .................... Review of legislation and regulations...……...…………………….14

Section 5(a)(1) ......................Significant problems, abuses and deficiencies….. …………...……1

Section 5(a)(2) ..................... Recommendations with respect to significant problems…………...1

Section 5(a)(3) .................... Significant recommendations that have not been completed………12

Section 5(a)(4) .................... Matters referred to prosecutorial authorities……………………….13

Section 5(a)(5) ..................... Summary of instances where information was refused…………...15

Section 5(a)(6) ..................... Completed audit reports...…………………………………………..5

Section 5(a)(7) ..................... Significant audit reports……...………………………………..........5

Section 5(a)(8) .....................Statistical Table—Questioned Costs………………………………20

Section 5(a)(9) .................... Statistical Table—Funds Recommended for Better Use……….….21

Section 5(a)(10) ................ Audit reports lacking management decision………………………...12

Section 5(a)(11) ................. Significant revised management decisions………………………....15

Section 5(a)(12) ................. Significant management decisions where the IG disagrees……..….15

Section 5(a)(13) ................. Information described under the Federal Financial Management...…6
............................................. Improvement Act of 1996………………….........................................

Section 6(b)(2) .................... Summary of reports to Chairman where assistance was refused…..15




                                                         iii
                              EXECUTIVE SUMMARY

        This semiannual report is issued by the Commodity Futures Trading Commission’s
(CFTC’s) Office of Inspector General (OIG) pursuant to the Inspector General Act of 1978, as
amended. It summarizes OIG’s activities and accomplishments for the period October 1, 2009
through March 31, 2010. During this period, OIG completed two audits, completed one
evaluation, issued an assessment of most serious management challenges, began one inspection,
began planning one review, continued work on one review, began a procurement action, and
initiated an update of one review. OIG also responded to Congressional inquiries and
commented to Congressional staff on pending legislation and other issues. OIG reviewed
proposed Division of Enforcement actions, as well as rules proposed by CFTC and by regulated
entities, participated in training, monitored peer review activities, visited CFTC field offices, and
participated in Government-wide OIG professional and cooperative meetings and activities. No
investigations were pending, opened or completed during this reporting period. No significant
problems, abuses or deficiencies regarding CFTC programs and operations were identified
during the reporting period.
        Highlights of OIG’s completed and ongoing audit, evaluation, investigation and other
projects include:
•   OIG oversaw the completion of the fiscal year (FY) 2009 audit of the CFTC financial
    statements. For the fifth consecutive year, an independent public accounting firm reported
    that the CFTC financial statements were presented fairly, in all material respects, and in
    conformity with the U.S. generally accepted accounting principles for Federal agencies.

•   OIG completed work on the FY 2009 audit of compliance with the Federal Managers’
    Financial Integrity Act (FMFIA). No significant issues were noted.

•   OIG completed work on the FY 2009 Federal Information Security Management Act
    (FISMA) independent evaluation. No significant issues were noted.

•   OIG issued its Assessment of the Most Serious Management Challenges Facing the CFTC:
    1) Harmonization of CFTC and Securities and Exchange Commission (SEC) Overlapping
    Regulations; 2) CFTC’s Regulatory Model for the Swaps Derivatives Market; and, 3)
    CFTC’s Regulatory Responsibilities over the Potential Carbon Emission Trading Markets.

•   On December 17, 2009, the Assistant Inspector General for Audits completed a detail to the
    International Trade Commission where he served as Acting Inspector General. The detail
    began on August 17, 2009.

•   OIG began a new procurement to secure an Independent Public Accounting (IPA) firm to
    perform the CFTC financial statement audit for FY 2010. Allegations concerning possible
    misconduct relating to a prior procurement process, which the IG duly referred to the
    Integrity committee in March 2009, were pending at the close of this reporting period.



                                                 1
•    OIG received an anonymous allegation regarding suspected improper disposal of surplus
     agency Information Technology (IT) equipment. In response, OIG began an inspection of
     the agency’s efforts to account for and dispose of surplus IT equipment in FY 2009. This
     inspection is nearing completion.

•    On its own initiative and in response to Congressional inquiry, OIG began an update of an
     earlier review of the need to reopen an agency field office on the West Coast.

•    The OIG conducted about 80 interviews in connection with an ongoing review of the effect
     of the CT Pay system on recruitment and retention.

•    The OIG began planning a new review that will involve an independent assessment of
     agency market surveillance communications with traders and market professionals.



                                    INTRODUCTION
1.      CFTC Programs and Operations.

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission’s mandate was renewed and/or expanded in 1978, 1982, 1986,
1992 and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through Fiscal Year 2005 with the passage of the Commodity Futures Modernization
Act of 2000 (CFMA). In May of 2008, Congress reauthorized the CFTC through Fiscal Year
2013.

        The CFTC is responsible for fostering the economic utility of futures markets by
encouraging their competitiveness and efficiency, ensuring their integrity and protecting market
participants against manipulation, abusive trade practices and fraud. Through effective oversight
regulation, the CFTC enables the commodity futures markets better to serve their vital function
in the nation’s economy–providing a mechanism for price discovery and a means of offsetting
price risks.

        The CFTC operating divisions are: Office of the Chairman, Office of the Executive
Director, Office of General Counsel, Division of Clearing and Intermediary Oversight, Division
of Enforcement, Division of Market Oversight and Office of the Chief Economist. In addition to
its headquarters office in Washington, DC, the CFTC maintains offices in Chicago, Illinois;
Kansas City, Missouri; and New York, New York.


2.      OIG Responsibilities.

       The CFTC OIG was created in 1989 in accordance with the 1988 amendments to the
Inspector General Act of 1978 (P.L. 95-452). OIG was established as an independent unit to:


                                                2
•   Promote economy, efficiency and effectiveness in the administration of CFTC programs and
    operations and detect and prevent fraud, waste and abuse in such programs and operations;

•   Conduct and supervise audits and, where necessary, investigations relating to the
    administration of CFTC programs and operations;

•   Review existing and proposed legislation, regulations and exchange rules and make
    recommendations concerning their impact on the economy and efficiency of CFTC programs
    and operations or the prevention and detection of fraud and abuse;

•   Recommend policies for, and conduct, supervise, or coordinate other activities carried out or
    financed by such establishment for the purpose of promoting economy and efficiency in the
    administration of, or preventing and detecting fraud and abuse in, its programs and
    operations; and

•   Keep the Chairman and Congress fully informed about any problems or deficiencies in the
    administration of CFTC programs and operations and provide recommendations for
    correction of these problems or deficiencies.

       OIG is required to conduct, supervise and coordinate audits of CFTC programs and
operations in accordance with generally accepted government auditing standards. 1 OIG is also
required to recommend changes to existing and proposed CFTC programs and operations to
promote economy, efficiency and effectiveness and to prevent and detect fraud and abuse.

        The purpose of OIG audits generally is to ensure that:

•   Funds have been expended in a manner consistent with related laws, regulations and policies;

•   Resources have been managed effectively and efficiently;

•   Stipulated program objectives have been achieved;

•   Agency operations have not been subject to improper influence or corruption; and

•   Resources have been safeguarded.

        The OIG also conducts inspections, evaluations, and reviews from time to time. As
stated in the Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency and the Executive Council on Integrity and Efficiency:

        An inspection is defined as a process that evaluates, reviews, studies, and/or analyzes the
        programs and activities of a Department/Agency for the purposes of providing

1
 The publication titled Government Audit Standards (July 2007) was issued by the U.S. Government Accountability
Office. The standards are available at http://gao.gov/govaud/ybk01.htm.


                                                      3
        information to managers for decision making; making recommendations for
        improvements to programs, policies, or procedures; and identifying where administrative
        action may be necessary. Inspections may be used to provide factual and analytical
        information; monitor compliance; measure performance; assess the efficiency and
        effectiveness of programs and operations; share best practices; and inquire into
        allegations of fraud, waste, abuse, and mismanagement. 2

        OIG investigations are performed in accordance with the Quality Standards for
Investigations issued by the President’s Council on Integrity and Efficiency and the Executive
Council on Integrity and Efficiency 3 and are performed in response to allegations and/or
evidence indicating possible violations of law, regulations, or applicable standards, as well as
other improper conduct in connection with the programs and operations of the Agency.

        OIG operates independently of the Agency and has not experienced any interference from
the CFTC Chairman in connection with the conduct of any investigation or audit, and our
investigations have been pursued regardless of the rank or party affiliation of the target. OIG has
also conducted audits without interference where it has perceived the opportunity to recommend
improvement to futures regulation efforts, again without regard to the party affiliation of any
Chairman. 4 No Chairman has interfered with OIG decisions regarding personnel actions,
training, travel or other expenditures; however, a procurement process initiated in 2008 to secure
the services of an external auditor to conduct the required CFTC financial statement audit has
raised issues pertaining to IG independence as well as allegations requiring referral to the
Integrity Committee, which referral was made by the IG in March 2009. The allegations were
pending with the Integrity Committee at the end of this reporting period.

3.      OIG Resources.

        The CFTC OIG consists of the Inspector General, the Assistant Inspector General for
Audits (AIGA), an Attorney-Advisor and a secretary. The present Inspector General assumed
his position on October 7, 1990. The AIGA joined the office in 1999, and the Attorney-Advisor
joined in 2007. During this reporting period, the AIGA completed a detail as Acting Inspector
General for the International Trade Commission (ITC). The AIGA served as Acting Inspector
General at ITC from August 17, 2009 to December 17, 2009.




2
  The publications titled Quality Standards for Investigations (December 2003) and Quality Standards for
Inspections (January 2005) were jointly issued by the President’s Council on Integrity and Efficiency and the
Executive Council on Integrity and Efficiency. The two councils were later combined to form the Council of
Inspectors General on Integrity and Efficiency. The standards are available at
http://www.ignet.gov/pande/standards1.html.
3
  See fn.2.
4
  The Inspector General Act of 1978, as amended, states: “Neither the head of the establishment nor the officer next
in rank below such head shall prevent or prohibit the Inspector General from initiating, carrying out, or completing
any audit or investigation….” 5 U.S.C. App. 3 sec. 3(a).


                                                         4
      COMPLETED AUDITS, REVIEWS, EVALUATIONS, and
                    INSPECTIONS

1.     Audit of CFTC Financial Statements for Fiscal Year 2009

Objective.

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, in 2009 the Acting Chairman selected Clifton Gunderson, an IPA, to
provide the audit effort required to enable the contractor to render an opinion on the agency’s
financial statements for Fiscal Year 2009. The OIG accepted the Acting Chairman’s selection
under protest.

       The specific objectives of this audit included determinations whether:

       (1) The financial statements present fairly the financial position of the Commodity
       Futures Trading Commission in accordance with generally accepted accounting
       principles (GAAP) as promulgated by the Federal Accounting Standards Advisory Board
       (FASAB). The five financial statements, along with all corresponding notes to be audited
       include: (a) Balance Sheet; (b) Statement of Net Cost; (c) Statement of Changes in Net
       Position; (d) Statement of Budgetary Resources; and (e) Statement of Custodial Activity.

       (2) Management’s assertions about the effectiveness of its internal controls for achieving
       internal control objectives described in AU Section 319 and the Federal Managers
       Financial Integrity Act (FMFIA) are fairly stated in all material respects. The contractor
       makes this determination in part by obtaining an understanding of the internal control
       policies and procedures and assessing the level of control risk relevant to all significant
       cycles, classes of transactions, and account balances. For those significant control
       policies and procedures that have been properly designed and placed in operation, the
       contractor performs sufficient tests to provide reasonable assurance as to whether the
       controls are effective and working as designed.

       The IPA limits its internal control testing to those controls necessary to achieve the
       objectives described in OMB Bulletin 07-04. Further, the IPA is not required to test all
       internal controls relevant to operating objectives as broadly defined by the FMFIA, such
       as those controls relevant to achieving efficient operations.

       With respect to internal controls related to performance measures reported in the
       accountability report, the IPA obtains an understanding of the design of significant
       internal controls relating to the existence and completeness assertions, as required by
       OMB Bulletin 07-04. The procedures are not required to provide assurance on internal
       controls over reported performance measures.


                                                5
          (3) The agency has complied with selected provisions of laws and regulations identified
          by OMB Bulletin 07-04 or the Inspector General, noncompliance with which could have
          a direct and material effect on the determination of financial statement amounts. The IPA
          limits its tests of compliance to these provisions and need not test compliance with all
          laws and regulations applicable to the CFTC.

       Clifton Gunderson rendered an opinion on the agency’s financial statements for Fiscal
Year 2009 in accordance with generally accepted auditing standards, Government Auditing
Standards and OMB Bulletin 07-04.

Status.

         For the fifth consecutive year, an independent public accounting firm reported that the
CFTC financial statements were presented fairly in all material respects, and in conformity with
the U.S. generally accepted accounting principles for Federal agencies. For the third consecutive
year the Commission had no material weaknesses, and was compliant with laws and regulations.
This includes compliance with the Federal Information Security Management Act. Furthermore,
the CFTC financial management system is in substantial compliance with the Federal Financial
Management Improvement Act of 1996 (although CFTC is not required to comply with FFMIA,
it has elected to do so.) The financial statement audit report was issued on November 13, 2009.

2.        Assessment of CFTC’s Management Challenges

Objective.

        In addition to authorizing the agencies to provide financial and performance information
 in a more meaningful and useful format for Congress, the Reports Consolidation Act of 2000
 also required the Inspector General to summarize the most serious management and
 performance challenges facing the CFTC and to assess the Agency’s progress in addressing
 those challenges for inclusion in the annual Performance and Accountability Report (PAR).

Status.

        The OIG prepared the required summary of the Agency’s most serious management and
performance challenges in accordance with the Reports Consolidation Act of 2000 for inclusion
in the FY 2009 PAR, and also reported on status of the most serious management and
performance challenges identified by the Inspector General in FY 2008. In FY 2008, the OIG
identified two most serious management challenges: Modernization of Electronic Market
Surveillance and Efficient Acquisition and Integration of Skilled Human Capital. During fiscal
year 2009 the Agency addressed both issues. The Agency upgraded its servers and trade analysis
systems to modernize and improve its surveillance of exchange traded futures and options
contracts. As the Agency acquires additional regulatory responsibilities, we hope that the
Agency is able to scale up its market surveillance capabilities. Since the start of FY 2009 the
Agency has increased its staff by 100 new employees (a 21% increase). This dramatic influx of
manpower should assist the Agency in meeting its expanding regulatory mission. The OIG is
conducting a review of the recent recruitment in order to evaluate the effect of the CT pay


                                                 6
system on recruitment and retention, which review will examine the skill sets of this new talent
pool.

For FY 2009, the OIG identified three “most serious” management challenges: Congressional
demand that the CFTC and SEC harmonize their regulation of overlapping financial products; a
decision on the CFTC’s regulatory model for the swaps derivatives market; and expansion of
CFTC’s regulatory responsibilities over the potential carbon emission trading markets.

Harmonization of CFTC and SEC Overlapping Regulations. On June 17, 2009, the White House
released a White Paper on Financial Regulatory Reform calling on the SEC and CFTC to “make
recommendations to Congress for changes to statutes and regulations that would harmonize
regulation of futures and securities.” 5 Specifically, the White House recommended “that the
CFTC and the SEC complete a report to Congress by Sept. 30, 2009, that identifies all existing
conflicts in statutes and regulations with respect to similar types of financial instruments and
either explains why those differences are essential to achieve underlying policy objectives with
respect to investor protection, market integrity, and price transparency or makes
recommendations for changes to statutes and regulations that would eliminate the differences.” 6
In September 2009, the CFTC and SEC collaborated on an initial effort to begin implementation
of the White House mandate, and released the required joint report on October 16, 2009. This
effort identified numerous areas for operational coordination that will require substantial analysis
and may yield a more efficient regulatory structure over the financial markets. The OIG looks
forward to the resulting regulatory model that will define the future mission of this Agency.

CFTC’s Regulatory Model for the Swaps Derivatives Market and the Need for Additional Human
Capital. Congressional action will determine the Agency’s need for additional human capital to
regulate Over-the-Counter derivatives markets, including swaps (contracts that call for an
exchange of cash between two participants based on an underlying rate or index, or the
performance of an asset). The Congressional Budget Office estimates that up to 235 employees
may be needed by fiscal year 2011 to regulate central counterparty clearing of swaps. 7 In our
estimation, this would require a 40% increase over existing staffing levels--a considerable
challenge for any organization. We believe both the intricacies of any forthcoming derivatives
regulation and the acquisition of human capital to carry out the regulatory tasks will challenge
the CFTC in the coming year.

CFTC’s Regulatory Responsibilities over the Potential Carbon Emission Trading Markets.
Congress may soon move forward on new legislation to regulate carbon emissions trading. A
recent Congressional Budget Office study projected that trading in carbon offsets could be a $60
billion market in 2012. 8 Presuming Congress assigns regulatory responsibility to the CFTC, the
CFTC will require additional staffing increases in order to absorb this additional regulatory

5
  Financial Regulatory Reform: A New Foundation, p.14-15.
http://www.financialstability.gov/docs/regs/FinalReport_web.pdf .
6
  Id., pg. 50.
7
  H.R. 3795 Derivative Markets Transparency and Accountability Act of 2009 Congressional Budget Office Cost Estimate
November 6, 2009 Page 3. http://www.cbo.gov/ftpdocs/107xx/doc10703/hr3795hfs.pdf.
8
  H.R. 2454 American Clean Energy and Security Act of 2009 Congressional Budget Office Cost Estimate June 5, 2009 Page 11.
http://www.cbo.gov/ftpdocs/102xx/doc10262/hr2454.pdf.



                                                            7
responsibility. We believe the increased responsibility will challenge the CFTC in the coming
year.

In November 2009 the OIG submitted the report to the Agency for inclusion in the PAR, and the
Agency transmitted the PAR to OMB and Congress.


3.        Audit of Compliance with the Federal Managers' Financial Integrity Act, FMFIA.

Objective.

       In support of OMB Circular A-123 (Revised), the Inspector General evaluates, provides
technical assistance and advises the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Status.

       OIG reviewed all of the draft internal control reviews produced by agency staff and
provided comments to the originating divisions. OIG offered its services to the CFTC Internal
Control Committee as advisor and consultant on conducting and reporting on vulnerability
assessments and internal control reviews. OIG reported the results of its review of the final
submissions to the Chairman in its annual assurance letters to the Chairman. No significant
issues were noted.


4.        Evaluation of the CFTC Information Security Program and Practices, FISMA.

Objective.

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.

Status.

        To provide a comprehensive review of the Commission’s security program, Office of
Information Technology Services (OITS) and OIG worked jointly in gathering and interpreting
information relating to the CFTC information security program. Using the information supplied
by OITS staff, a contractor and the program managers, the Inspector General reviewed and
analyzed the information and responded in tabular form to the questions raised by the OMB
Guidance. Results of this effort were transmitted to the CFTC’s Chief Information Officer (CIO)
in November 2009, for combination with the CIO’s assessment and inclusion in the Chairman’s
report to OMB. No significant issues were noted.




                                               8
         CURRENT AUDITS, REVIEWS, EVALUATIONS, and
                      INSPECTIONS
1.       Review of the Effect of the CFTC Pay System on Recruitment and Retention.

Scope and Objective

        This review will evaluate the effect of the CFTC pay scale on current recruitment and
retention. Section 10702 of Public Law 107-171, the Farm Security and Rural Investment Act of
2002 (FSRIA) authorized CFTC to create its own pay system (CT pay system or CT pay). CFTC
began paying employees under the new pay system in 2003. We are going to review retention
during the past six years, as well as changes in recruitment that may be attributed to the new pay
system. The objectives of this review are: to elicit employee and management views on how the
CT pay system has effected recruitment and retention over the past six years, coupled with
Agency data that will permit an informed analysis of the effect of the CT pay system.

Status

        During the reporting period, the OIG completed the planning stages of this review,
researching applicable law and policy regarding the CT pay system and informally discussing the
review with Agency management. The OIG completed 79 interviews of CFTC employees to get
their views on whether and to what extent CT Pay influenced their decision to apply with CFTC,
to accept a job offer, and to stay employed at CFTC.

2.       Inspection of CFTC’s Disposal of Surplus Information Technology Equipment.

Scope and Objective

        In Fiscal Year 2009 the Commodity Futures Trading Commission(CFTC) initiated a
technology refresh of all IT equipment provided to employees. The replaced equipment became
surplus equipment. Once an agency declares personal property to be in excess of their need, the
property is transferred to the General Services Administration(GSA) which then follows
established guidelines stated in the Federal Management Regulation (FMR) 9 for disposing
surplus equipment. Alternatively, Executive Order 12999 10 permits an agency to donate excess
electronic equipment directly to needy schools, which the agency elected to do for IT assets in
the New York, Chicago, and Kansas City offices.

       The objectives of this inspection are to verify that the agency has properly accounted for
and disposed selected surplus equipment related to the information technology refresh, and to
review the internal controls associated with the disposal process for agency IT assets. This


9
  See Federal Management Regulation (FMR) (41 CFR Part 102 Subchapter B “Personal Property”). For donation
of surplus personal property see 41 CFR Part 102-37.
10
   See Executive Order 12999 signed by William J. Clinton The White House, April 17, 1996.


                                                    9
inspection was motivated by our receipt of an anonymous allegation. (For additional details
regarding the allegation, see the section on investigations beginning on page 13.)

Status

        During the reporting period, the AIGA completed the bulk of the work associated with
this inspection, examining transfer data for 1196 IT assets consisting of personal computers,
laptops, servers, and enclosures. At this time 1,184 or 99% of the selected sample of surplus
assets have been accounted for; however, work is continuing and results are preliminary. In
addition, the OIG is examining agency internal controls to document that applicable disposal
procedures, such as sanitization of hard drives, are complete prior to disposal.


3.       Update of the Review of the Need for a Los Angeles Office.

Scope and Objective

        In 2006, the CFTC OIG issued a report titled “Review of the Need for a Western
Regional Office in Los Angeles.” That report recommended, among other things, that the
Commission review the feasibility of reestablishing the former Los Angeles field office. That
recommendation initially was not carried out largely due to budgetary constraints. In January
2008, partially in response to a Congressional inquiry, CFTC OIG updated its analysis and issued
a follow-up report which reiterated the earlier recommendation. In January 2009, the Acting
Chairman issued a decision declining to implement the recommendation generally due to cost
considerations, and requested that the Division of Enforcement provide productivity information
to the OIG on a yearly basis so that OIG may remain apprised of enforcement efforts on the West
Coast.

        The Division of Enforcement recently provided the requested yearly report to the OIG.
In addition, the OIG received a Congressional inquiry seeking updated information on our
office’s open and unimplemented recommendations. While we believe an update is warranted in
order to adequately consider the information provided by the Division of Enforcement and to
respond to the Congressional inquiry, we also believe an update is in order due to recent
increases in agency funding as well as current legislative proposals that could greatly expand the
CFTC’s jurisdiction and mission. Presuming the Agency grows in size and in responsibility, we
believe such growth will add to the reasons to open additional CFTC Offices on the West Coast
and possibly other areas as well.

       Our objective is to analyze current Enforcement information and to compare current
productivity with productivity levels when the CFTC enjoyed the presence of a field office in
Los Angeles. We will also discuss recent increases in funding as well as proposed legislation.
We will make recommendations as warranted.

Status




                                                10
        The Division of Enforcement produced current enforcement statistics on March 26, and
at the end of the reporting period we were continuing to analyze the data.


4.      Review of CFTC’s Documentation of Market Surveillance Communications.

Scope and Objective

        We intend to conduct an independent review of market surveillance operations at CFTC,
specifically informal communications between agency staff and traders with large open positions
approaching expiration. This review is motivated by concerns voiced by agency staff as well as
the United States Government Accountability Office (GAO).

   GAO has noted with concern the apparent absence of documentation of certain
communications by CFTC market surveillance staff. In 2007 the GAO remarked:

     CFTC staff routinely make inquiries about traders with large open positions approaching
     expiration, but formal records of their findings are only kept in cases where there is evidence
     of improper trading. If [Large Trader Reporting System] data reveal that a trader has a large
     open market position that could disrupt markets if it were not closed before expiration, CFTC
     staff would contact the trader to determine why the trader had the position and what plans the
     trader had to close the position before expiration or to ensure that the trader was able to take
     delivery. If the traders provided a reasonable explanation for the position and a reasonable
     delivery or liquidation strategy, staff said that no further action would be required. CFTC
     staff said they would document such contacts on the basis of their importance in either
     informal notes, e-mails to supervisors, or informal memorandums [sic]. No formal record
     would be made of the inquiry, according to one CFTC official, unless there was a signal
     indicating improper trading activity. Without such data, CFTC’s measures of the
     effectiveness of its actions to combat fraud and manipulation in the markets will not reflect
     this surveillance activity, and CFTC management might miss opportunities to both identify
     trends in activities or markets and better target its limited resources.

     CFTC staff added that all surveillance projects and activities that require a minimum number
     of hours of work are tracked by quarterly statistical reports, including those futures
     expirations with large trader or deliverable supply problems. They said that expirations are
     routinely monitored by economists and reviewed with their supervisors through weekly
     surveillance reports. Economists are responsible for the analytical review of cash and futures
     market developments, including the assessment of supply and demand factors, basis and
     spread relationships, the adequacy of deliverable supply, large trader positions and position
     changes, large trader histories, and the potential for group trader activity. CFTC staff said
     that their economists keep their supervisors and the commission informed of potential
     problems as they arise. 11



11
 Commodity Futures Trading Commission: Trends in Energy Derivatives Markets Raise Questions about CFTC’s
Oversight, GAO-08-25, pages 49-50.


                                                   11
        We intend to take an independent look at CFTC market surveillance communications and
documentation. We are interested in finding out more about how the process works, whether
current internal procedures exist and are followed by staff, and whether increased documentation
would improve operations and increase transparency, without resulting in undue burden taking
into account current staffing levels. We are also interested in the legal ramifications of the
creation of a database of market surveillance. We will make recommendations as appropriate.

Status

         This review is in the initial planning and research stages.

     AUDIT REPORTS and REVIEWS OVER SIX MONTHS OLD
1.       Corrective Action not Completed.

       There were no instances of audit reports over six months old where corrective action had
not been completed.


2.       Corrective Action Completed.

        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.


3.       Management Decision not Made.

        There are no instances of a report issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.
In 2006, the CFTC OIG issued a report titled “Review of the Need for a Western Regional Office
in Los Angeles.” That report recommended, among other things, that the Commission review
the feasibility of reestablishing the former Los Angeles field office. That recommendation was
not carried out largely due to budget constraints. In January 2008, partially in response to a
Congressional inquiry, CFTC OIG updated its analysis and on March 12, 2008, issued a follow-
up report which reiterated the earlier recommendation. In January 2009, the Acting Chairman
issued a decision declining to implement the recommendation generally due to cost
considerations, but asked the Agency to revisit the issue on a yearly basis. In light of increased
funding for FY09, as well as further consultation with regulators, we renew the recommendation.




                                                  12
                                   INVESTIGATIONS
        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees and other
sources concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, abuse of authority, or gross waste of funds, or a substantial and
specific danger to the public health and safety.

        No investigations were pending as of the beginning of the reporting period. No
investigations were opened during this period. In December 2009, this Office received an
anonymous allegation of improper disposal of surplus IT equipment. The allegation did not
name any CFTC employees involved in the alleged improper disposal, not did it allege specific
dates, but it did allege both that computer equipment was taken improperly by CFTC employees,
and that CFTC computer equipment was surplused without prior “sanitization” (i.e., the process
by which information is removed prior to disposal of computer equipment). Because the
allegation was vague, and because the source could not be contacted for more information, we
decided it would be most appropriate to conduct an inspection. The inspection is ongoing. (For
additional details regarding the inspection, see the section on current audits, reviews, evaluations,
and inspections beginning on page 9.)


                SUMMARY OF MATTERS REFERRED TO
                   PROSECUTORIAL AUTHORITIES
        No matters were referred to prosecutorial authorities during the reporting period. In
accordance with section 11(d)(4) of the Inspector General Act of 1978, as amended, an allegation
relating to supposed misconduct within the OIG was referred to the Integrity Committee of the
Council of the Inspectors General on Integrity and Efficiency in a prior reporting period. The
allegation was pending at the close of this reporting period.


                         CONGRESSIONAL INQUIRIES
        OIG fielded multiple requests for assistance from members of Congress and staff during
the reporting period. Issues addressed included recent OIG activities, recent agency activities,
and proposed and pending legislation affecting the OIG and the agency.




                                                 13
          LEGISLATIVE, REGULATORY AND RULE REVIEWS
1.         Introduction and Summary.

        As specified in Section 4(a)(2) of the Inspector General Act of 1978, OIG reviews the
impact of existing and proposed legislation and regulations on CFTC programs and operations
and makes recommendations regarding more effective or efficient alternatives or protections
against fraud and abuse. OIG also reviews all exchange rule proposals circulated to senior staff
at CFTC.

        OIG notified the responsible Divisions as to any concerns with draft and final documents
relating to legislation, rules or investigations. Formal comments were not filed with the
Commission during this reporting period.


2.         Rule Reviews Initiated in Previous Reporting Periods.

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.


3.         Rule Reviews Initiated this Reporting Period.

           No rule reviews were initiated during this reporting period.

4.         Legislative Activities.

        OIG tracked legislation impacting programs and operations of the CFTC, and made
contact with Congressional staff concerning various agency and IG issues as appropriate. The
IG serves on the legislation committee for the Council of Inspectors General on Integrity and
Efficiency, which comments on proposed amendments to the IG Act and other legislation
affecting the IG community.


                                               PEER REVIEWS

        An important function in each Agency OIG is the peer review process. The Inspector
General community’s annual report, A Progress Report to the President, Fiscal Year 2007, 12
described the processes for audits and investigative peer reviews as follows:

           Government Auditing Standards require that audit organizations conducting audits
           of Federal agencies undergo peer reviews every 3 years. The IG community has

12
     http://www.ignet.gov/randp/fy07apr.pdf.


                                                    14
            implemented a process to meet this requirement. The purpose of the peer review
            is to determine whether the reviewed audit organization’s internal quality control
            systems are adequate and provide reasonable assurance that applicable auditing
            standards, policies and procedures are met.

            Similarly, investigative peer reviews are conducted to ensure compliance with the
            requirements of the Quality Standards for Investigations and determine whether
            adequate internal safeguards and management procedures exist to ensure that law
            enforcement powers are properly exercised. 13

        During this reporting period, OIG continued to monitor the government-wide OIG peer
review schedules as communicated by the Council of the Inspectors General on Integrity and
Efficiency. OIG discussed scheduling issues with our partner OIG offices as appropriate. No
peer reviews were begun or completed during this reporting period.


                    SUMMARY OF EACH REPORT MADE TO
                          THE AGENCY HEAD
        No reports were made to the Agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided (mandated under section 5(a)(5) of the Act).


                       REVISED MANAGEMENT DECISIONS
            No management decisions were revised during the reporting period.


                    INSPECTOR GENERAL DISAGREEMENT
      The Inspector General did not disagree with any management decisions on OIG
recommendations during the reporting period.


                                          GAO LIAISON
        OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

13
     Id. at p.19.


                                                    15
       GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audit activities identifies the goals of each audit
and the methods of reaching the goals so as to minimize the requirements placed on CFTC
resources. During this reporting period the OIG participated in an Inspectors General discussion
with GAO on matters of common interest.


                     STRATEGIC PLAN FOR THE
                 OFFICE OF THE INSPECTOR GENERAL
1.     Investigative Agenda.

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. However, allegations and
complaints are also received from the general public and Congress. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because OIG
believed that an independent regulatory agency such as the CFTC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach OIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline phone number is (202)418-
5510.

        Because of the necessarily reactive nature of OIG's investigative program, no
investigative agenda has been established.


2.     Legislative and Regulatory Review Agenda.

        Because of the importance of this activity in a financial and economic regulatory agency,
OIG reviews proposed and final CFTC regulations, legislation and selected exchange rules using
six basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be
addressed by the proposal; (2) has defined through case study or data analysis a clear link
between the proposed solution and the identified problem(s); (3) has specified clearly the means
to effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.


                                               16
        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because OIG does not initiate legislation or, generally, regulations, OIG legislative and
regulatory review program is reactive to the legislative and regulatory proposals developed by
others. Accordingly, no independent legislative and regulatory review agenda has been
established.


3.     Audit Agenda.

a. Introduction

         The primary objectives of the OIG audit agenda is to promote long-term efficiency and
effectiveness in the administration and operation of the Commission and to protect against fraud
and abuse. The audit agenda and priorities for OIG are determined based on the following
factors:

       •   Adequacy of internal control systems as indicated by vulnerability assessments and
           internal control reviews recommended by OMB Circular A-123;

       •   Changes in the program conditions or particular vulnerability of the organization,
           program, activity, or function to problems or deficiencies;

       •   Current and potential dollar magnitude and likely benefits of a review on the
           efficiency or effectiveness of CFTC programs and operations;

       •   Management priorities and improvements that may be possible;

       •   Results of audits of CFTC programs and operations by other Federal agencies; and

       •   Availability of audit resources and the potential opportunity costs to the agency.


b. Annual Audits

       The following required audits are performed on an annual basis.

Audit of CFTC Financial Statements.

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the agency’s financial statements for each fiscal


                                                17
year in accordance with generally accepted auditing standards, Government Auditing Standards
and OMB Bulletin 07-04.

Audit of Compliance with the Federal Managers' Financial Integrity Act, FMFIA.

       In support of OMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Evaluation of the CFTC Information Security Program and Practices, FISMA.

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.


c. Other Audits.

        OIG intends to focus the balance of its audit resources on the review of the management
and operation of the agency and compliance with Congressional mandates. In the near future,
OIG intends to complete the ongoing audits previously discussed beginning page 9. In the
longer term, the OIG intends to continue to monitor the agency’s use of contractors from time to
time, with an emphasis on contracts for IT services.

        In addition, OIG intends to focus its efforts with a view to auditing or reviewing activities
relating to the most serious management challenges facing the CFTC. OIG issues an assessment
of the most serious management challenges each year for publication in the CFTC Performance
and Accountability Report. In the past four years, OIG has identified as management challenges
including following areas of concern:

      Efficient Acquisition and Integration of Skilled Human Capital
      Modernization of Electronic Market Surveillance
      Expansion of CFTC Oversight into New Markets
      Industry Consolidations
      Harmonization of CFTC and Securities and Exchange Commission (SEC) Overlapping
       Regulations;
      CFTC’s Regulatory Model for the Swaps Derivatives Market; and
      CFTC’s Regulatory Responsibilities over the Potential Carbon Emission Trading Markets

OIG will seek to identify issues and to conduct audits and reviews relating to these management
challenges. Finally, OIG will stand ready to respond to meritorious issues and audit requests as
they are received from Congress, the Agency and members of the public or any other source.


d. Resources Required



                                                 18
        OIG estimates that approximately one-half staff year of effort will be devoted over each
of the next five years to the “Annual Audits” described above. All other ongoing Audits will
consume up to one and a half staff years. Because OIG resources can be diverted at any time to
an investigation or audit that responds to current concerns or allegations and must be completed
in a timely fashion in order to be of assistance to the Agency or Congress, it is impossible to
forecast with complete accuracy how resources will be utilized from year to year.


                       CONTACTING THE OFFICE OF THE
                           INSPECTOR GENERAL

        OIG is located at 1155 21st Street, N.W., Washington, D.C. 20581. Regular business
hours are between 8:30 AM and 5:00 PM, Monday through Friday, except Federal holidays. The
telephone number is (202)418-5110. The facsimile number is (202)418-5522. The hotline
number is (202)418-5510. The OIG web page is located at
http://www.cftc.gov/About/OfficeoftheInspectorGeneral/index.htm.




                                               19
                                              Table 1
                                 Reports Issued with Questioned Costs
                                  (October 1, 2009 – March 31, 2010)

                                                                        Dollar Value
                                                                         Thousands
                                                     Number      Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   0               0        0

B.   Which were issued during the reporting
     period                                             0               0        0

     Subtotals (A + B)                                  0               0        0
C.   For which a management decision was
     made during the reporting period                   0               0        0

     (I)      dollar value of
              disallowed costs                          0               0        0

     ( ii )   dollar value of costs not
              disallowed                                0               0        0

D.   For which no management decision
     has been made by the end of the
     reporting period                                   0               0        0




                                              20
                                              Table 2
                             Reports Issued with Recommendations
                               That Funds be Put to Better Use
                              (October 1, 2009 – March 31, 2010)


                                                            Dollar Value
                                                   Number    Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                0             0

B.   Which were issued during the reporting
     period                                          0             0

     Subtotals (A + B)                               0             0
C.   For which a management decision was
     made during the reporting period                0             0

     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                     0             0

     ( ii )   dollar value of
              recommendations that
              were not agreed to by
              management                             0             0

D.   For which no management decision
     has been made by the end of the
     reporting period                                0             0




                                              21
